February 27, 2014

MEMORANDUM FOR:           GUY J. COTTRELL
                          CHIEF POSTAL INSPECTOR




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Management Alert – Watch Desk Notifications
                          (Report Number HR-MA-14-005)

This management alert presents the results of our review of U.S. Postal Inspection
Service Watch Desk Notifications (Project Number 14YR001HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Watch Desk Notifications                                                                              HR-MA-14-005




Introduction

The U.S. Postal Service Office of Inspector General (OIG) initiated a review to gain an
understanding of the U.S. Postal Inspection Service’s Watch Desk notification process.
The Postal Inspection Service’s Headquarters Watch Desk receives information about
critical events that may have national implications and require immediate action. The
Watch Desk is staffed 24 hours a day, 7 days a week by the National Law Enforcement
Communication Centers (NLECC)1 and is meant to be an instant notification system.
When an event occurs, local Postal Inspection Service personnel contact the Watch
Desk to report information for dissemination to Postal Service officials for appropriate
action. The OIG assistant inspector general for investigations is on the Watch Desk
distribution list.

The Postal Inspection Service is responsible for investigating crimes of violence,
including homicides of or committed by Postal Service employees or contractors when
the crimes are related to employment. The chief postal inspector and the deputy chief
inspector, Headquarters Operations, determine notification requirements for the
postmaster general, deputy postmaster general, chief operating officer, members of the
Board of Governors, the inspector general, and other executive officers. The OIG has
oversight responsibility for all activities of the Postal Inspection Service and the chief
postal inspector is required to timely report to the OIG2 the significant activities being
carried out by the Postal Inspection Service.

On November 23, 2013, a city carrier assistant3 was fatally shot while working a route
after dark in Cheverly, MD. This incident received significant media attention but was
not reported to the Postal Inspection Service’s Watch Desk, and the Postal Inspection
Service did not notify the OIG until 6 days after the incident occurred. According to
Postal Inspection Service officials, sensitive incidents are usually reported from the field
through various methods, including face-to-face meetings, telephone calls, and email,
and no one outside the Postal Inspection Service should rely on Watch Desk reporting
for every single incident. In addition, information may be held several days before it is
sent out through a Watch Desk notification, and a description of the incident without
sensitive information may be issued through the Watch Desk to provide notification to
personnel on the distribution list.




1
  The NLECC provides centrally managed radio and alarm monitoring and after-hours emergency telephone
coverage and has access to law enforcement and intelligence information databases.
2
  Inspector General Act of 1978, 5 U.S.C. App. 3, Section 8G(f)(2), updated October 2008.
3
  A part-time Postal Service employee hired to relieve regular mail carriers of excess work on their routes.
                                                           1
Watch Desk Notifications                                                                               HR-MA-14-005



Conclusion

The Postal Inspection Service does not create Watch Desk notifications for every
sensitive incident4 affecting the Postal Service or provide timely information to the OIG
regarding such incidents when a Watch Desk notification is not created. As a result, the
OIG may not receive the information necessary to fulfill its oversight and law
enforcement responsibilities. the Postal Inspection Service should timely report all
sensitive incidents affecting the Postal Service to the OIG.

Watch Desk Notifications

Postal Inspection Service guidelines5 require personnel to immediately report to the
Watch Desk employee homicides that occur on- or off-duty and any other incident that
may generate significant media attention. However, Postal Inspection Service officials
stated that they are not required to report all incidents to the Watch Desk due to the
sensitive nature surrounding certain incidents involving law enforcement investigations
and national security. The Postal Inspection Service did not create a Watch Desk
notification for the city carrier homicide that occurred on November 23, 2013, in
Cheverly, MD, and did not timely inform the OIG of the incident. This occurred because
the Postal Inspection Service does not have a formal process to ensure timely
notification of sensitive incidents to the OIG, especially those that are not reported
through the Watch Desk. Although management stated that Watch Desk notifications
are an internal communication tool for field division personnel to notify Postal Inspection
Service Headquarters of incidents that may have national implications, no Watch Desk
notification was created for this incident because it received significant media attention.
Postal Inspection Service management stated they would establish procedures for
notifying the OIG of sensitive incidents.

Currently, the Postal Inspection Service notifies the OIG of incidents through multiple
channels, including Watch Desk notifications, face-to-face meetings, telephone calls,
and emails, but no formal notification process is in place. Postal Inspection Service
officials stated that information in emails can be sent easily beyond the initial recipient
so the use of multiple communication channels helps maintain the security of the
information.

On January 2, 2014, Postal Inspection Service officials issued new Watch Desk
reporting guidelines to enhance the Watch Desk reporting process and clarify
procedures for sensitive incident reporting. In addition, there will be less reliance on
Watch Desk notifications to report sensitive incidents, because they will be reported
through a new Executive Committee Incidents 1 (EC1) mailbox. The Postal Inspection
Service established the EC1 mailbox for division management to immediately report
sensitive incidents or information to the chief postal inspector and deputy chief
4
  Sensitive incidents may consist of events related to significant dangerous mail incidents, major criminal incidents
(such as employee death or homicide), significant or sensitive matters related to Postal Service or Postal Inspection
Service employees, and other incidents of national significance.
5
  Watch Desk Reporting Guidelines, dated July 2011 and Inspection Service Manual, updated January 2012.
                                                            2
Watch Desk Notifications                                                      HR-MA-14-005



inspectors at national headquarters. The OIG is not on the EC1 distribution list. After
Postal Inspection Service management at national headquarters is notified of a
sensitive incident, they provide further guidance to division management concerning
dissemination of information via the Watch Desk or other external reporting methods.

Recommendation

We recommend the chief postal inspector:

1. Establish a formal process to timely notify the Office of Inspector General of
   sensitive incidents.

Management’s Comments

Management agreed with the recommendation and stated they would notify the OIG in
a timely manner of all sensitive postal-related incidents not reported through the Watch
Desk. Management reviewed a discussion draft of this report and submitted comments.
See Appendix A for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective action should resolve the issue identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
the corrective action is completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                            3
Watch Desk Notifications                                       HR-MA-14-005




                           Appendix A: Management’s Comments




                                           4
